TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Although Citibank Travel Rebates Have
                     Significantly Increased, They Were Not
                         Properly Allocated, Resulting in
                          the Misappropriation of Funds



                                      September 24, 2010

                              Reference Number: 2010-10-124




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


ALTHOUGH CITIBANK TRAVEL                             the method the IRS used to distribute the
REBATES HAVE SIGNIFICANTLY                           quarterly travel rebates caused a
INCREASED, THEY WERE NOT                             misappropriation of funds to occur. However,
PROPERLY ALLOCATED, RESULTING IN                     TIGTA did not identify any instances in which
                                                     these funds were used for personal use or find
THE MISAPPROPRIATION OF FUNDS
                                                     any evidence of criminal wrongdoing.
                                                     In addition, there is no assurance that the rebate
Highlights                                           amounts the IRS receives are accurate.
                                                     Citibank does not provide any data that would
Final Report Issued on September 24,                 allow the IRS to recalculate and verify the
2010                                                 accuracy of the rebates. Also, travel claims
                                                     were not always timely filed and approved,
Highlights of Reference Number: 2010-10-124          which reduced rebate amounts.
to the Internal Revenue Service Deputy               However, the IRS has made much progress in
Commissioner for Operations Support.                 maximizing the amount of rebates through the
IMPACT ON TAXPAYERS                                  new Citibank contract and improved controls
                                                     over the travel card program affecting rebates.
The Internal Revenue Service (IRS) receives          The new Citibank contract provides a new type
travel card rebate payments from its credit card     of rebate that has significantly increased the
services contractor (Citibank) based on the total    amount of rebates received.
dollar volume of its travel expenditures and the
timeliness of payments. Rebates are required         Although rebates have increased, prompt action
by law to be returned to the IRS appropriation       is needed to correct the allocation of rebates
account(s) from which travel expenditures were       and obtain validation of rebate amounts. In
originally charged. The Agency-Wide Shared           addition, increased emphasis is needed to fully
Services function retained the majority of the       maximize the amount of rebates received and to
approximately $3.2 million in rebates received       further strengthen controls over the travel card
during our audit period, instead of properly         program affecting rebates.
allocating them back to all five IRS appropriation   WHAT TIGTA RECOMMENDED
accounts. This resulted in a misappropriation of
funds. Ensuring rebates are distributed back to      TIGTA recommended that the IRS establish and
the correct budget appropriation accounts would      implement policies and procedures and institute
enable the IRS to use the rebates to help fund       an oversight program to ensure that all future
operations IRS-wide.                                 travel card rebate allocations are properly
                                                     distributed and that the time period allowed for
WHY TIGTA DID THE AUDIT                              approving a travel claim is clarified. In addition,
This review was conducted as part of the             the IRS should seek assistance from the
TIGTA Fiscal Year 2010 Annual Audit Plan and         Department of the Treasury to obtain the
addresses the major management challenge of          necessary Citibank data to validate the rebate
Erroneous and Improper Payments and Credits.         amounts it receives.
The overall objective was to determine whether       The IRS agreed with all of our
the IRS has effective internal controls to ensure    recommendations. The IRS has developed
that Citibank travel card rebates are maximized,     procedures to properly allocate rebates and
accurate, and properly allocated.                    plans to institute an oversight program.
WHAT TIGTA FOUND                                     However, the IRS disagreed with the use of the
                                                     term “misappropriation of funds” used in this
The IRS travel card rebate program lacks             report and thought the term “misallocation of
sufficient management oversight, and the IRS         funds” was a more accurate description of its
did not ensure travel rebates were maximized,        noncompliance with applicable laws and
accurate, and properly allocated. As a result,       regulations.
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 24, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:            (for)        Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Although Citibank Travel Rebates Have
                               Significantly Increased, They Were Not Properly Allocated, Resulting
                               in the Misappropriation of Funds (Audit # 200910034)

 This report presents the results of our review of the travel card rebate program. The overall
 objective of this review was to determine whether the Internal Revenue Service has effective
 internal controls to ensure that Citibank travel card rebates1 are maximized, accurate, and
 properly allocated. This audit is one of a series of audits planned to assess how the Internal
 Revenue Service is managing its travel, fleet, and purchase credit cards. This review is included
 in our Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Erroneous and Improper Payments and Credits.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.




 1
  A rebate is a monetary payment provided by credit card contractors to agencies based on either dollar volume spent
 or timeliness and frequency of payments to the contractor.
                                    Although Citibank Travel Rebates Have
                          Significantly Increased, They Were Not Properly Allocated,
                                  Resulting in the Misappropriation of Funds




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Improper Allocation of Rebates Resulted in the
          Misappropriation of Funds............................................................................ Page 5
                    Recommendations 1 and 2: ................................................ Page 6

          Citibank Rebate Amounts Cannot Be Validated, and
          No Internal Revenue Service Efforts Were Being Made to
          Obtain Validation .......................................................................................... Page 7
                    Recommendation 3 and 4: ................................................. Page 8

          Travel Claims Were Not Always Timely Submitted
          and Approved ................................................................................................ Page 8
                    Recommendation 5:........................................................ Page 11

          The New Citibank Contract and Increased Controls
          Have Significantly Increased Rebates .......................................................... Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Outcome Measures............................................................... Page 19
          Appendix V – Excerpt From Office of Management and Budget
          Circular A-123, Appendix B ......................................................................... Page 21
          Appendix VI – Internal Revenue Service Travel Card Rebates and
          Net Charge Volumes ..................................................................................... Page 22
          Appendix VII – Management Response to the Draft Report ........................ Page 24
                  Although Citibank Travel Rebates Have
        Significantly Increased, They Were Not Properly Allocated,
                Resulting in the Misappropriation of Funds




                     Abbreviations

AWSS           Agency-Wide Shared Services
CCS            Credit Card Services
FY             Fiscal Year
GSA            General Services Administration
IRS            Internal Revenue Service
OMB            Office of Management and Budget
TIGTA          Treasury Inspector General for Tax Administration
                                 Although Citibank Travel Rebates Have
                       Significantly Increased, They Were Not Properly Allocated,
                               Resulting in the Misappropriation of Funds




                                             Background

The Travel and Transportation Reform Act of 19981 stipulates that Government-sponsored and
contractor-issued travel cards shall be used by all United States Government personnel to pay for
official Government travel expenses. Each Federal department or agency selects one of the
General Services Administration (GSA) card services contractors and receives rebate2 proceeds
from the contractor under the terms of the GSA contract.3 The Internal Revenue Service’s (IRS)
travel card program includes two types of accounts: Individually Billed Accounts (hereafter
referred to as individual travel accounts) and Centrally Billed Accounts (hereafter referred to as
central travel accounts).
The individual travel account is to be used by an individual employee for official Government
travel and travel-related expenses only while away from his or her official duty station. The
individual traveler receives and is responsible for paying the bill. The central travel accounts are
corporate travel card accounts that are set up for each of the IRS business units for the purpose of
paying for common carrier4 transportation expenditures and related fees for employees who are
in official travel status away from their official duty stations but who do not have individual
travel cards (for example, new employees who have not yet obtained their own individual travel
cards or infrequent travelers).
Under the current Citibank contract, rebates are based on two primary factors: the total amount
of travel card purchases (hereafter referred to as expenditures and also known as net charge
volume)5 and the timeliness of payments for the travel expenditures. Rebates are increased by
prompt payments and are reduced or eliminated by late payments, delinquencies,6 and
charged-off accounts.7 From Fiscal Year (FY) 2005 through the first quarter of FY 2010, the
IRS received quarterly travel card rebates totaling approximately $3.2 million.


1
  5 U.S.C. 5701 P.L. 105-264.
2
  A rebate is a monetary payment provided by credit card contractors to agencies based on either dollar volume spent
or timeliness and frequency of payments to the contractor.
3
  The Department of the Treasury selected the Citibank contract for all of its bureaus.
4
  A common carrier is defined as a private-sector supplier of air, rail, or bus transportation.
5
  Net charge volume is the sum of all travel expenditures, including Travelers Checks, convenience checks,
automated teller machine, and other fee-generating products/services less merchant credits (return of goods or
services).
6
  Delinquencies occur on individual travel accounts when a balance due remains unpaid for a period of 61 calendar
days or more from the closing date of the Government credit card contractor’s statement on which the charges first
appeared.
7
  A charge-off is the removal of an account from a credit card issuer’s books as an asset after it has been delinquent
for a period of time, usually 180 calendar days. When an account is charged off, the credit card issuer absorbs the
outstanding balance as a loss.
                                                                                                             Page 1
                                 Although Citibank Travel Rebates Have
                       Significantly Increased, They Were Not Properly Allocated,
                               Resulting in the Misappropriation of Funds



Office of Management and Budget (OMB) Circular A-123, Appendix B, Improving the
Management of Government Charge Card Programs, (hereafter referred to as the Circular)
prescribes policies and procedures to agencies regarding how to maintain internal controls that
reduce the risk of fraud, waste, and error in Government charge card programs.8 The Circular
also stipulates that unless specific statutory authority exists allowing rebates to be used for other
purposes, rebates must be returned to the appropriation9 or account from which they were
expended and can be used for any legitimate expenditure by the appropriation or account to
which they were returned, or as otherwise authorized by statute.
In the Federal budget process, Congress passes the yearly Federal budget, which provides
funding appropriations to agencies. The Department of the Treasury allocates a portion of its
funding to the IRS, which has five regular appropriation accounts: Taxpayer Services,
Enforcement, Operations Support, Business System Modernization, and Health Insurance Tax
Credit Administration. Appropriations are distributed into budget activity categories and
functional activity categories10 that divide the appropriation accounts into numerous basic
functions.
The IRS’ Credit Card Services (CCS) Branch (part of Employee Support Services in the
Agency-Wide Shared Services (AWSS) function) has administrative oversight and program
responsibilities for the IRS’ credit card programs. These responsibilities include acting as the
IRS liaison with Citibank and the Department of the Treasury for all aspects of its credit card
programs (travel, purchase, and fleet cards), monitoring account activity, updating and testing
internal controls and procedures, and providing training.
We were unable to assess the reliability of the travel data contained in the IRS’ Integrated
Financial System, due to the unavailability of the data provided to us from Citibank. Although
we utilize the web-based system Citibank Custom Reporting System provided by Citibank to
verify related payment information, we considered the data contained in the Integrated Financial
System and Citibank to be undetermined in terms of completeness and accuracy. However, in
our opinion, using the data for our purposes did not weaken our analysis or lead us to an
incorrect message.
This review was performed at the AWSS function’s CCS Branch in Indianapolis, Indiana, during
the period October 2009 through May 2010. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan

8
  Appendix V provides information about the guidance on Government credit card rebates found in
OMB Circular A-123, Appendix B.
9
  An appropriation is a provision of law authorizing the expenditure of funds for a given purpose and to incur
obligations.
10
   The IRS allocates its budget by various levels of budget activities (such as Infrastructure or Shared Services and
Support) and classifications (such as operating travel and training travel). The IRS uses various accounting codes to
track its budget expenditures. It also tracks rebate allocations using accounting codes (e.g., Appeals operating travel
or Small Business/Self-Employed Division training travel).
                                                                                                               Page 2
                             Although Citibank Travel Rebates Have
                   Significantly Increased, They Were Not Properly Allocated,
                           Resulting in the Misappropriation of Funds



and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                                 Although Citibank Travel Rebates Have
                       Significantly Increased, They Were Not Properly Allocated,
                               Resulting in the Misappropriation of Funds




                                       Results of Review

The IRS travel card rebate program lacks sufficient management oversight, and the IRS did not
ensure travel rebates were maximized, accurate, and properly allocated. The AWSS function
retained the majority of the approximately $3.2 million in travel card rebates received during our
audit period even though the IRS’ travel expenditures were funded from all 5 of its appropriation
accounts. The IRS could not provide us with documentation of who made this decision, but it
resulted in a misappropriation of funds11 for each quarter because the rebates should have been
distributed back to those five appropriation accounts from which the travel expenditures
originated. Although we did not trace the travel rebate fund allocations below the appropriation
level, and the scope of our review did not include specific audit tests to identify fraudulent
transactions using rebate funds, our field work did not identify any instances in which these
funds were used for personal use. We did not refer this issue to TIGTA Office of Investigations
as we did not identify any evidence of criminal wrongdoing.
 In addition, the IRS is not able to validate the amount of rebates it receives and has no assurance
that the amounts are correct. In addition, the amount of rebates was reduced due to the untimely
submission and approval of some travel vouchers (hereafter referred to as travel claims).
However, the IRS has made much progress in maximizing the amount of rebates through the new
Citibank contract and improved controls over the travel card program affecting rebates. The new
Citibank contract provides a new type of rebate12 that has significantly increased the amount of
rebates received. In addition, some of the initiatives that the IRS undertook to improve the
timeliness of payments to Citibank included bringing a new automated travel system13 online,
implementing new controls to alert card holders that their travel card balances were past due, and
ensuring central travel accounts were timely paid.



11
   U.S. Code, Title 31, Section 1301, The Misappropriation Act, requires that funds appropriated by Congress be
used only for the programs and purposes for which the appropriation was made. U.S. Code, Title 31,
Section 1301(a), commonly known as the Purpose Statute, states: “Appropriations shall be applied only to the
objects for which the appropriations were made except as otherwise provided by law.” The use of funds for a
purpose other than that for which the funds were appropriated is a violation of the Purpose Statute (which is
considered a misappropriation).
12
   The current contract between the Department of the Treasury and Citibank awards the IRS two types of rebates,
which are paid quarterly: sales rebates and productivity rebates. Sales rebates are based on the total dollar volume
of travel expenditures during a specified period. Productivity rebates are provided on all travel card transactions
based on the net charged volume and the agency’s promptness of payments. The prior contract did not contain
productivity rebates for individual travel accounts.
13
   GovTrip is a web-based travel management system used by the IRS for creating travel authorizations, making
reservations, and processing travel reimbursement claims.
                                                                                                             Page 4
                                Although Citibank Travel Rebates Have
                      Significantly Increased, They Were Not Properly Allocated,
                              Resulting in the Misappropriation of Funds



While the IRS has increased the amount of rebates received, prompt action is needed to correct
the allocation of rebates and obtain validation of rebate amounts. In addition, increased
emphasis is needed to maximize the amount of rebates received and to further strengthen
controls over the travel card program affecting rebates.

Improper Allocation of Rebates Resulted in the Misappropriation of
Funds
The IRS used two approaches for distributing travel card rebates, but neither approach properly
followed the Circular. The Circular states that rebate proceeds are to be returned to the
appropriation account from which they were expended and can be used for any legitimate
expenditure. For the period FY 2005 through the first quarter of FY 2010, the travel card rebates
totaled approximately $3.2 million. The AWSS function retained the majority of the rebates,
even though the IRS’ travel expenditures were funded from all five appropriation accounts. The
IRS advised us that it interpreted the Circular as supporting its retention of the rebates within the
AWSS function to cover the costs of the Employee Support Services programs and operations
because they believed this was a legitimate purpose. However, this practice violated both the
Circular and the Purpose Statute, and the misappropriation of funds occurred. The Circular does
not specify how the rebates should be further distributed below the appropriation account level,
but this is something the IRS can determine.
The IRS could not provide us documentation of how its rebate allocation practices originated. In
addition, the IRS had not developed or implemented any internal policies, procedures, or
guidelines for the allocation of rebates, even though the IRS began receiving rebates with the
inception of the SmartPay114 card in 1998. We believe this contributed to the improper practices
for distributing rebates. In February 2010, the IRS drafted procedures to govern the allocation of
rebates, which were not finalized by the end of our fieldwork. We did not review the draft policy
document and cannot comment on whether it will address the issues we identified.
The IRS’ budget has five regular appropriation accounts: Taxpayer Services, Enforcement,
Operations Support, Business System Modernization, and Health Insurance Tax Credit
Administration. Information obtained from the IRS showed that travel expenditures IRS-wide
were funded from all of these appropriation accounts during FY 2005 through the first quarter of
FY 2010. As such, the rebates should have been distributed back to these appropriation
accounts. Once distributed to an appropriation account, the rebate amounts can be used by any
business unit or program that is funded by that appropriation account.
The travel card rebates the IRS received for the first quarter of FY 2010 were significantly larger
than in prior periods and amounted to over $1 million for that quarter alone. During the prior


14
  SmartPay1 was a Federal travel card program that provided purchase, travel, and fleet credit cards to agencies
throughout the United States Government and was in effect from November 30, 1998, through November 29, 2008.
                                                                                                         Page 5
                                 Although Citibank Travel Rebates Have
                       Significantly Increased, They Were Not Properly Allocated,
                               Resulting in the Misappropriation of Funds



periods, the quarterly travel card rebates usually ranged from about $25,000 to almost
$400,000.15 Because the rebate amounts are becoming increasingly significant, it is even more
critical that rebates are properly distributed.
The IRS needs to ensure it is properly using its funds, including ensuring travel rebates are
distributed back to the appropriate budget appropriation accounts. This would enable the IRS to
use the rebates to help fund operations IRS-wide, including providing services to taxpayers.

Recommendations
Recommendation 1: The Chief Financial Officer should establish and implement policies
and procedures that are in compliance with the Circular to ensure travel card rebates are
distributed to the appropriation against which the expenditures were originally charged. The IRS
should also determine how the rebates will be further distributed below the appropriation account
level.
         Management’s Response: The IRS agreed with this recommendation and will take
         the following actions: 1) The Chief Financial Officer is incorporating guidance into the
         FY 2011 Financial Operating Guidelines to outline the procedure for charging travel card
         rebates to appropriations in compliance with the Circular; 2) the AWSS and the Chief
         Financial Officer have developed a procedure to distribute the rebate and are working to
         develop a formal Standard Operating Procedure that describes the procedures for
         quarterly Citibank Rebates distribution that will be followed for FY 2011; and 3) the
         Chief Financial Officer will continue to work with business unit budget offices to ensure
         fund control procedures are followed and the integrity of each appropriated account is
         maintained. The established guidelines and procedures will be reviewed on a regular
         basis to ensure that they are current.
Recommendation 2: The Deputy Commissioner for Operations Support should institute an
oversight program, including periodic reviews, to ensure the new policies and procedures were
implemented and that future travel card rebates are properly distributed.
         Management’s Response: The IRS agreed with this recommendation. The
         Agency-Wide Shared Services Office of Strategy and Finance will develop procedures
         and conduct periodic reviews to monitor the distribution of rebate monies.




15
  Appendix VI provides details of travel card rebates and the net charge volume attributable to the IRS’ travel card
expenditures from FY 2007 through the first quarter of FY 2010.


                                                                                                             Page 6
                                Although Citibank Travel Rebates Have
                      Significantly Increased, They Were Not Properly Allocated,
                              Resulting in the Misappropriation of Funds



Citibank Rebate Amounts Cannot Be Validated, and No Internal
Revenue Service Efforts Were Being Made to Obtain Validation
The IRS does not verify whether the quarterly rebates received from Citibank are accurate, and
we determined that Citibank currently does not provide any data that would allow the IRS to do
this. IRS managers stated that they do not have any policies and procedures for verifying the
accuracy of the Citibank rebates. Instead, they rely on the Department of the Treasury to ensure
the accuracy of the travel card rebates that are received from Citibank. When we met with
representatives from the Department of the Treasury, we learned that while they also do not have
any written policies or procedures to verify the accuracy of the rebate, they do perform a
“reasonableness test”16 on sales rebates by comparing various reports17 they receive from
Citibank that provide periodic information on Treasury travel expenses (total sales) charged to
Citibank cards.
We attempted to recalculate the rebate amounts disbursed to the IRS based on the reports18 the
Department of the Treasury received from Citibank for the period of September 2007 through
March 2009. During our discussions with Citibank to determine the method used for the
calculation of the rebate, the Citibank representative stated that the calculation is programmed
into a Citibank mainframe computer and it is impossible to provide the formula that can be used
to validate the amount of rebates.
Good internal control systems provide assurance that internal control and transactions are clearly
documented and that the documentation is readily available for examination. Without this
control, the IRS cannot be assured that the approximately $3.2 million in travel card rebates
received from FY 2005 through the first quarter of FY 2010 were accurate. If they are less than
what they should have been, the IRS did not receive its rightful amount of rebates and taxpayers
are not receiving the benefit of additional tax administration activities funded partially from
rebates.
Because GSA manages the master contract that the Department of the Treasury has with
Citibank, the IRS should coordinate with the Department of the Treasury to advise GSA of its
concerns regarding Citibank’s failure to provide the necessary mathematical formula that will
allow the IRS to recalculate and validate the rebate amounts received. The issue of unverifiable
Citibank calculation of rebates has been referred to our Office of Investigations for
consideration.



16
   Reasonableness tests are procedures to examine the logic of accounting information.
17
   The Department of the Treasury reviews the Citibank monthly cycle spend reports (Departmental roll-up level) to
compare the spend amount to the rebate net charge volume amount provided separately by Citibank.
18
   GSA SmartPay Refund by Bureau analysis reports items such as net credit volume, sales rebate, productivity
refund, and net refund.
                                                                                                          Page 7
                             Although Citibank Travel Rebates Have
                   Significantly Increased, They Were Not Properly Allocated,
                           Resulting in the Misappropriation of Funds



Recommendations
Recommendation 3: The Chief Financial Officer should coordinate with the Department of
the Treasury acquisition representatives to work with Citibank in obtaining the data necessary to
independently verify the quarterly travel card rebate amounts. Once this is achieved, a
documented policy and procedure to confirm the accuracy of the rebate amounts should be
established, including a monitoring program to provide oversight and periodic reporting. The
Deputy Commissioner for Operations Support should ensure the policy is implemented.
       Management’s Response: The IRS agreed with this recommendation. The AWSS
       has discussed the process required to validate rebate earnings with the Department of the
       Treasury. The IRS was informed that steps are taken to validate the Sales portion of the
       rebates; however, neither the Department of the Treasury nor the bureaus have the ability
       to validate the Productivity rebates for 100 percent accuracy. The AWSS contacted the
       GSA to obtain information about independent validation of rebates and was advised that
       it has recently contracted with an outside accounting firm to perform reviews of the
       rebate process. Per the GSA, the Department of the Treasury will be on the review list
       for FY 2011; however, validation will be performed at the Treasury level only and not by
       specific bureau.
Recommendation 4: The Chief Financial Officer should share the observations in this report
with the Department of the Treasury and the IRS’ Citibank contract representative at the GSA
for use when negotiating the next agreement with the travel card services contractor. This will
ensure that data will be provided to enable the IRS and other Department of the Treasury bureaus
to independently verify the amount of rebates due to the agency.
       Management’s Response: The IRS agreed with this recommendation. The IRS’
       inability to independently validate rebates has been shared by the AWSS with the
       Department of the Treasury and the GSA Office of Charge Card Management. The GSA
       has agreed to incorporate the Department of the Treasury in the contracted rebate audits
       planned for FY 2011. The AWSS will utilize any audit findings made available by the
       GSA and the Department of the Treasury to ensure the IRS maximizes rebate earnings.
       The AWSS will support the Department of the Treasury and GSA in the development of
       contractor requirements related to independent rebate validations for future contracts.

Travel Claims Were Not Always Timely Submitted and Approved
Analysis of travel claims showed that about 34 percent of the travel claims in our sample were
not submitted in the required 5 business days after the completion of travel, but only about
8 percent were not timely approved. As a result of delays in filing travel claims, the subsequent
reimbursement to Citibank is also delayed, potentially causing the IRS to risk not maximizing
travel card rebates. Specifically, the productivity portion of the rebate is based on timely

                                                                                           Page 8
                                 Although Citibank Travel Rebates Have
                       Significantly Increased, They Were Not Properly Allocated,
                               Resulting in the Misappropriation of Funds



payment of the travel card balance on the monthly statement. As a result, delays in
reimbursements may delay when travel card balances are paid, which may reduce rebates.19
We randomly selected a sample of 89 travel claims processed through the GovTrip system
between May 2008 and August 2009 to determine whether the travel claims were timely
submitted and timely approved.

Timeliness of submitting travel claims
According to the Internal Revenue Manual on travel regulations, at the conclusion of the
business travel, the traveler is required to prepare and submit a travel claim through GovTrip
within 5 business days after the official travel has ended. 20
We found that 30 (34 percent) of the 89 travel claims were not filed within the required
5 business days of the completion of travel. We did not review the potential cause of the
untimeliness in this review; however, this issue will be included in a future audit of the travel
card program.21 Figure 1 provides details on the number of business days it took for the
IRS employees to file their travel claims after the conclusion of the travel period.




19
   For example, if the travel period was at the beginning of the monthly statement cycle and the travel claim was not
timely filed and approved, there would not be a negative reduction of the productivity rebate if the travel claim was
paid before the monthly statement was issued. Conversely, if the travel period was toward the end of the monthly
statement cycle or crossed over into the next statement cycle, even if the travel claim was timely filed and approved,
the productivity rebate would be unavoidably lessened because the travel claim would not be paid until after the
monthly statement was issued.
20
   Internal Revenue Manual 1.32.1.8 (2) states: “You must submit your travel voucher within 5 working days after
completion of the trip.” However, if the traveler is in continuous travel status (traveling 30 days or more with no
return to duty station or residence), he or she is required to file a travel voucher once every 30 calendar days. We
did not analyze the data to identify if any in our sample were continuous travelers.
21
   There may be several reasons why a traveler did not file within 5 business days: continuous travel, annual or sick
leave immediately after a travel period, or another travel assignment immediately after the prior travel period. We
did not test to determine if any of the travelers in the sample encountered any of these situations.
                                                                                                              Page 9
                                Although Citibank Travel Rebates Have
                      Significantly Increased, They Were Not Properly Allocated,
                              Resulting in the Misappropriation of Funds



                        Figure 1: Time Taken to Submit Travel Claims

                                                             Number of        Number of
                                                              Timely          Untimely
     Business Days to Submit Travel Claim                                                         Percent
                                                              Travel           Travel
                                                              Claims           Claims
                          0–5                                     59                               66.3%
                         6 – 10                                                     20             22.5%
                         11 – 15                                                    7               7.9%
                         16 – 35                                                    3               3.4%
 Total number of travel claims reviewed = 89
 Number of untimely travel claims                                                   30             33.7%
Source: IRS Integrated Financial System travel data.

Timeliness of approving travel claims
After employees file their GovTrip travel claims, the travel system will automatically send an
email notification to the employee’s supervisor to alert them that a travel claim is awaiting their
review and approval. We researched the IRS travel procedures and guidance to determine the
number of business days the approving official has to approve a travel claim and did not find any
guidance that clearly specified the requirements. However, the IRS’ Travel Services
management referred us to the Official IRS Travel Guide22 and explained that they interpreted
this guidance to imply that the approving officials have 7 calendar days to approve a travel
claim. We believe this guidance does not clearly define the number of calendar days for
approving a travel claim and should be updated to specify the time allowed to approve a travel
claim.
Our analysis of the 89 travel claims revealed that 7 (8 percent) of the 89 travel claims were not
approved timely (within the implied 7 calendar days). These 7 travel claims were approved
between 8 and 26 calendar days from the travel claim submission date. Figure 2 details the
number of calendar days it took for the IRS approving official to approve the travel claims.




22
  IRM 1.32.1.8 (14), Official IRS Travel Guide, provides “The IRS must notify you within 7 calendar days after
receipt of the travel claim and must provide the reasons why the travel claim is not proper.”
                                                                                                        Page 10
                               Although Citibank Travel Rebates Have
                     Significantly Increased, They Were Not Properly Allocated,
                             Resulting in the Misappropriation of Funds



                       Figure 2: Time Taken to Approve Travel Claim

                                                            Number of   Number of
                                                             Timely     Untimely
    Calendar Days to Approve Travel Claim                                             Percent
                                                             Travel      Travel
                                                             Claims      Claims
                         0–7                                   82                      92.1%
                        8 – 10                                              4          4.5%
                        11 – 15                                             2          2.2%
                        16 – 30                                             1          1.1%
 Total number of travel claims reviewed = 89
 Number of travel claims approved after
 7 calendar days                                                            7          7.9%
Source: IRS Integrated Financial System Travel Card Data.

Although two-thirds of the travel claims in our sample were submitted timely and the majority
were approved timely, the need still exists to ensure the timeliness of filing and approving travel
claims. This can be accomplished by providing periodic reminders to IRS travelers and
managers and by advising them why it is important to handle travel claims timely. It is an
important part of IRS employees’ responsibility to appropriately manage this financial
responsibility. In addition, maximizing rebates is important because rebates funded by Citibank
are returned to the IRS’ operating budget.

Recommendation
Recommendation 5: The Chief Financial Officer should: 1) issue an IRS-wide
memorandum reminding employees of the time requirements for filing and approving travel
claims and 2) revise the Internal Revenue Manual to clarify the time period allowed for
approving travel claims.
        Management’s Response: The IRS agreed with this recommendation and will take
        the following actions: 1) the Chief Financial Officer will communicate through the
        appropriate mechanism the time requirement for approving travel claims and 2) the Chief
        Financial Officer will include the time requirement for approving travel claims in its
        revision to the travel Internal Revenue Manual.




                                                                                            Page 11
                                 Although Citibank Travel Rebates Have
                       Significantly Increased, They Were Not Properly Allocated,
                               Resulting in the Misappropriation of Funds



The New Citibank Contract and Increased Controls Have Significantly
Increased Rebates

The new Citibank contract resulted in significantly increased rebate amounts
The November 2008 SmartPay2 contract with Citibank that contained higher basis points and an
additional type of rebate for individual travel account cards,231along with the split-disbursement
option242in GovTrip, collectively resulted in a significant increase in the rebate amounts. Under
the prior contract, the Citibank quarterly rebates ranged from about $25,000 to $150,000 during
FYs 2007 and 2008. In FY 2009, when both the new contract and the split disbursement were in
effect, the rebates doubled over the course of that year. Prior to FY 2009, the rebates averaged
approximately $62,000. Furthermore, in the first quarter of FY 2010, rebates dramatically
increased to over $1 million for just that quarter alone.253
Features of the SmartPay2 contract that created a substantial increase in the rebates were:
      •   Sales rebate basis points increased from 8 to 78.5 (approximately a tenfold increase).
      •   A productivity rebate was added for the individual travel account.
During FY 2009, the IRS completed its migration to GovTrip as its new automated travel
system. This system provided a split-disbursement option that allowed Citibank to be paid
directly from the IRS when travel claims were paid. According to Treasury Directive 74-12, Use
of Government Contractor-Issued Travel Charge Cards, bureaus and offices must use the
mandatory split-disbursement option within GovTrip for certain travel related expenses. The
split-disbursement requirement ensures that at least part of each travel reimbursement payment
reaches Citibank quicker than would have been the case under the previous IRS travel system.
Prior to the implementation of GovTrip, the IRS reimbursed the traveler and the traveler
paid Citibank after he or she received the travel card statement. In analyzing the sample of
89 IRS GovTrip travel claims, we found that 100 percent of the travelers appropriately used the
split-disbursement option to pay Citibank directly.
While we could not quantify the actual amounts of split-disbursement payments that were made
before the monthly statements were issued and therefore how much of the increase in rebates
was due to the split-disbursement feature, Citibank did receive payments quicker. What is clear



231
    Central travel accounts received productivity rebates under SmartPay1.
242
    GovTrip automatically sets the default for certain travel expenses (such as airline tickets, lodging, and car rental)
to be paid directly to Citibank rather than to the traveler. The traveler has the ability to manually change this option
for any travel expenses.
253
    Appendix VI provides details of travel card rebates and the net charge volume attributable to the IRS’ travel card
expenditures from FY 2007 through the first quarter of FY 2010.
                                                                                                                Page 12
                              Although Citibank Travel Rebates Have
                    Significantly Increased, They Were Not Properly Allocated,
                            Resulting in the Misappropriation of Funds



is that the split-disbursement feature and the increase in sales basis points greatly contributed to
the IRS’ ability to maximize travel card rebates.

Controls for past-due travel accounts helped reduce travel card account
delinquencies
The IRS’ efforts to identify past-due accounts that would soon become delinquent and the use of
automated notifications to travelers have been effective in minimizing the number of delinquent
travel card accounts, a factor in positively influencing IRS rebate amounts. Accounts become
past due when a balance remains unpaid for a period of 31 to 60 calendar days, and are
considered delinquent 61 calendar days after the closing date of the Citibank monthly statement.
In a FY 2002 Treasury Inspector General for Tax Administration (TIGTA) audit report, 264the
TIGTA found that the IRS travel card coordinators were not promptly notifying managers of
employees who had not timely paid their travel card bills. Therefore, managers were not able to
take corrective actions against employees to help promote prompt employee payments and obtain
higher Citibank rebates.
In July 2005, the IRS centralized its travel card program responsibilities from the individual
business units to the AWSS function’s CCS Branch. As a result of the centralization, the
CCS Branch began conducting analyses of Citibank reports of past-due and delinquent accounts.
In April 2007, the CCS Branch began sending notices to travelers and their respective managers
to remind them to pay past-due amounts before they reached delinquent account status. The IRS
decided in July 2007 to only send the notices to the travelers and discontinued the notices to the
travelers’ managers.
These past-due notices have had a positive effect in preventing travel card holder accounts from
becoming delinquent. As a result of these notices, the number of cardholders that received a
past-due notice and subsequently became delinquent decreased from 170 (3 percent) of 6,276
travel cardholders in FY 2008 to 162 (2 percent) of 8,053 travel cardholders in FY 2009.
Although the IRS’ past-due notice procedures have been effective in reducing the number of
cardholder accounts reaching delinquent status, some IRS employee travel accounts were still
charged off. From September 2007 through March 2009, 134 IRS employee accounts were
charged off for a total of approximately $290,000, which also reduced the amount of IRS rebates
because rebates are not earned on delinquent accounts. When IRS employees fail to pay their
individual travel card balances and travel cards become delinquent or are suspended, it reflects
poorly on the IRS and its responsibility to operate with high levels of integrity and
accountability.




264
  The Travel Charge Card Program’s Controls Could Be Enhanced (Reference Number 2002-10-183, dated
September 23, 2002).
                                                                                                Page 13
                                Although Citibank Travel Rebates Have
                      Significantly Increased, They Were Not Properly Allocated,
                              Resulting in the Misappropriation of Funds



Controls were strengthened and central travel accounts were timely paid
The IRS’ internal controls helped ensure it met the 30-day requirement275for timely payment of
central travel account monthly statements. With central travel accounts, employees do not
submit individual claims for common carrier transportation expenditures. Instead, the
transportation expenditures are shown on the monthly statements for each central travel account.
For the central account monthly statements, CCS Branch staffs are responsible for ensuring each
travel expense on the monthly statement is authorized and correct, monitoring and reviewing the
activity on the central travel account monthly statement, and verifying that funds are available
prior to forwarding the monthly statement to the IRS’ finance center for payment to Citibank.
Our review of the monthly statements for the central travel accounts from October 2007
through April 2009 determined that less than 1 percent were not timely paid. We reviewed the
IRS’ reconciliation payment tracking documents and Citibank records of central travel account
payments and found that the CCS Branch is timely reconciling and certifying the monthly central
travel account statements and timely forwarding the certified reconciled statements to the
IRS’ finance center. We examined all 834 central travel account payments totaling $4.8 million
that were made during our audit period. Of those 834 payments, we found only 2 (0.2 percent)
that were not timely paid286according to the requirements of the Prompt Payment Act; i.e.,
30 calendar days from the date the IRS received the central travel account statement from
Citibank.




275
    P.L. 97-177, 5 CFR Part 1315 § 1315.4 (Prompt Payment Act Section 1315.4, Prompt payment standards and
required notices to vendors, paragraph (g) iv.). The Prompt Payment Act requires that agencies pay invoices within
30 days.
286
    One payment was 2 calendar days late and the other was 26 calendar days late.
                                                                                                         Page 14
                                Although Citibank Travel Rebates Have
                      Significantly Increased, They Were Not Properly Allocated,
                              Resulting in the Misappropriation of Funds



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has effective internal
controls to ensure that Citibank travel card rebates1 are maximized, accurate, and properly
allocated. To achieve this objective, we:
I.      Obtained an overall understanding of the IRS’ policies, procedures, and controls that
        affect travel card program rebates.
        A. Interviewed the appropriate CCS Branch personnel.
        B. Contacted personnel at the Department of the Treasury to obtain an overall
           understanding of their involvement, roles, and responsibilities and of the procedures
           they follow to help ensure that the IRS receives the proper amount of rebates from
           Citibank.
        C. Reviewed the contract between the GSA and Citibank and the task order issued for
           the Department of the Treasury to identify the rebate terms. We contacted IRS and
           Citibank personnel to understand the definitions of the rebate terms.
II.     Determined whether the IRS and the Department of the Treasury’s verification
        procedures are effective for ensuring that the IRS receives the appropriate travel card
        rebate amounts.
        A. Attempted to use the travel card transactions data obtained from the Citibank Custom
           Reporting System2 to recalculate and compare to the Department of the Treasury’s
           reports of rebates paid to the IRS for the period September 1, 2007, to
           March 31, 2009.
        B. Assessed the reliability of Citibank’s computer-processed travel card data and
           determined whether the data is sufficiently reliable to use for audit tests.
III.    Determined whether the IRS’ internal controls effectively maximized the travel card
        rebate amounts.
        A. Selected a random sample of 89 individual travel claims from 92,562 filed in GovTrip
           from September 5, 2007, through August 28, 2009. We obtained information about

1
  A rebate is a monetary payment provided by credit card contractors to agencies based on either dollar volume spent
or timeliness and frequency of payments to the contractor.
2
  The Citibank Custom Reporting System provides a listing of all attributes, metrics, and filters to produce queries
and reports.
                                                                                                          Page 15
                                 Although Citibank Travel Rebates Have
                       Significantly Increased, They Were Not Properly Allocated,
                               Resulting in the Misappropriation of Funds



             payments for these travel claims from the Integrated Financial System3 to determine
             when the travel claims were paid. A random sample was used as a method in which
             each member of the population has an equal chance of being selected, thereby
             ensuring no bias is used in the sample selection.
         B. Determined whether the IRS’ controls are effective to ensure reconciliation and
            timely payments of central travel account statement balances.
         C. Reviewed 834 Citibank central account payments to identify the number of days from
            the statement date to the date Citibank was paid.
         D. Determined the amount and frequency of the IRS’ individual travel account and
            central travel account delinquent accounts and charge-offs/write-offs and the potential
            effect, if any, on the rebates.
IV.      Identified the quarterly travel card rebate amounts received in FYs 2007–2009 and the
         first quarter of FY 2010 and prepared a chart to identify any unusual increases or
         decreases.
V.       Determined whether the IRS allocated and used the rebate amounts in accordance with all
         applicable policies and procedures.
VI.      Followed up on the FY 2002 TIGTA4 audit recommendations related to travel card
         rebates to determine whether corrective actions were sufficient to fully address the audit
         findings.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’ policies, procedures, and controls
to ensure the IRS receives the proper amount of rebates from Citibank, maximizes rebates, and
properly allocates the rebates received. We evaluated these internal controls by: 1) interviewing
management; 2) reviewing a sample of GovTrip individual travel claims, including the filing,
approval, and payment of each travel claim; and 3) reviewing all central travel account payments
during our audit time period.




3
  The Integrated Financial System is a single integrated financial system that connects the agency’s accounting,
performance, budgeting, and procurement functions.
4
  The Travel Charge Card Program’s Controls Could Be Enhanced (Reference Number 2002-10-183,
dated September 23, 2002).
                                                                                                            Page 16
                           Although Citibank Travel Rebates Have
                 Significantly Increased, They Were Not Properly Allocated,
                         Resulting in the Misappropriation of Funds



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Doris J. Hynes, Acting Audit Manager
Michelle Philpott, Audit Manager
Gene A. Luevano, Lead Auditor
David P. Robben, Senior Auditor
Ahmed M. Tobaa, Senior Auditor
Steve E. Holmes, Auditor




                                                                                  Page 17
                           Although Citibank Travel Rebates Have
                 Significantly Increased, They Were Not Properly Allocated,
                         Resulting in the Misappropriation of Funds



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Employee Support Services OS:A:ESS
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:COIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Senior Technical Advisor, Agency-Wide Shared Services Audit & Inspection Liaison
       OS:A




                                                                                   Page 18
                                Although Citibank Travel Rebates Have
                      Significantly Increased, They Were Not Properly Allocated,
                              Resulting in the Misappropriation of Funds



                                                                                               Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Cost Savings, Funds Put to Better Use – Actual; $3,161,592 in travel card rebates1 were not
    disbursed to the correct appropriation2 accounts for operational needs for the period FY 2005
    through the first quarter of FY 2010 (see page 5).

Methodology Used to Measure the Reported Benefit:
We reviewed applicable Federal guidance (OMB Circular A-123, Appendix B, Improving the
Management of Government Charge Card Programs, and the Misappropriations Act)3 to
determine how travel card rebates should be disbursed. We interviewed IRS program officials to
determine the IRS’ use and allocation of the travel card rebates and requested IRS policies and
procedures that govern these practices. We analyzed the amount of quarterly travel card rebates
received, the amount of quarterly travel card expenditures by appropriation, and the amount and
distribution of the quarterly rebates.
The Circular requires that rebates be returned to the appropriation account(s) from which the
travel card expenditures were originally charged. We found that the IRS did not properly
distribute rebates of $3,161,592 back to the 5 IRS appropriation accounts. The AWSS function
retained the majority of the rebates even though the IRS’ travel expenditures were funded from
all five appropriation accounts. The IRS advised us that it interpreted the Circular as supporting
its retention of the rebates within the AWSS function to cover the costs of the Employee Support
Services programs and operations because they believed this was a legitimate purpose.
However, this resulted in a misappropriation of rebate funds received from Citibank.




1
  A rebate is a monetary payment provided by credit card contractors to agencies based on either dollar volume spent
or timeliness and frequency of payments to the contractor.
2
  An appropriation is a provision of law authorizing the expenditure of funds for a given purpose and to incur
obligations.
3
  U.S.C. Title 31 Section 1301.
                                                                                                          Page 19
                             Although Citibank Travel Rebates Have
                   Significantly Increased, They Were Not Properly Allocated,
                           Resulting in the Misappropriation of Funds



Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $3,161,592 in rebate amounts that could not be
    independently validated to ensure accuracy (see page 7).

Methodology Used to Measure the Reported Benefit:
We interviewed IRS program officials and Department of the Treasury representatives to
determine the verification process used to ensure the correct amount of rebates was paid by
Citibank. We interviewed Citibank representatives to determine the methodology to calculate
the rebates. We reviewed applicable Federal guidance (OMB Circular A-123) to determine the
agency’s responsibility to ensure the proper management of rebates.
We found that the IRS did not attempt to verify whether the rebates received from Citibank were
accurate and we determined that Citibank currently does not provide any data that would allow
the IRS to accomplish this verification. Without this control, the IRS has no assurance that the
$3,161,592 in travel card rebates received from FY 2005 through the first quarter of FY 2010
was accurate.




                                                                                          Page 20
                                Although Citibank Travel Rebates Have
                      Significantly Increased, They Were Not Properly Allocated,
                              Resulting in the Misappropriation of Funds



                                                                                                Appendix V

     Excerpt From Office of Management and Budget
               Circular A-123, Appendix B

OMB Circular A-123, Appendix B, Improving the Management of Government Charge Card
Programs, specifically states that the goal of this guidance is to maximize the benefits to the
Federal Government when using Government charge cards to pay for goods and services by, for
example:
    •   Improving financial, administrative, and other benefits offered to the Government by
        Government charge card providers and other entities, including maximizing rebates1
        where appropriate.
    •   Ensuring effective controls are in place to mitigate fraud, misuse, and delinquency.
    •   Reducing administrative costs and time for purchasing and paying for goods and services.
To drive down costs while ensuring that charge card programs effectively support the agency
mission and financial controls, charge card managers must strive to:
    •   Utilize proper cash management decision-making to maximize agency sales productivity
        rebates or Government-wide interest income earned by the Department of the Treasury as
        the situation determines.
    •   Employ the necessary internal controls to identify and collect corrective rebates.2
In order to ensure that agencies are in the best position to maximize sales and productivity
rebates, charge card managers must:
    •   Ensure on-time payments and appropriate card use by employing the processes and tools
        identified in the Guidance.
    • Initiate internal controls to ensure that appropriate charge card use is maximized.




1
  A rebate is a monetary payment provided by credit card contractors to agencies based on either dollar volume spent
or timeliness and frequency of payments to the contractor.
2
  Corrective rebates are payments from the charge card vendor to the agency to correct improper or erroneous
payments or an invoice adjustment.
                                                                                                          Page 21
                                   Although Citibank Travel Rebates Have
                         Significantly Increased, They Were Not Properly Allocated,
                                 Resulting in the Misappropriation of Funds



                                                                                                               Appendix VI


                  Internal Revenue Service Travel Card
                    Rebates1 and Net Charge Volumes2

The two figures below show the amount of the IRS travel card rebates received and the travel
card net charge volumes by fiscal year and quarter. Figure 1 shows that generally the highest
amounts of rebates for each fiscal year were received in the first quarter of the fiscal year. In
FY 2009, when both a new contract and a split-disbursement feature in the automated travel
system were in effect, the rebates doubled over the course of that year. Prior to FY 2009, the
rebates averaged approximately $62,000. Furthermore, in the first quarter of FY 2010, rebates
dramatically increased to over $1 million for just that quarter alone.
                                         Figure 1: Travel Card Rebates



    $1,200,000

    $1,000,000

     $800,000

     $600,000

     $400,000

     $200,000

           $0
                  FY07    FY 07   FY 07   FY 07   FY08    FY 08   FY 08   FY 08   FY09    FY 09   FY 09   FY 09   FY10
                 1st Qtr 2nd Qtr 3rd Qtr 4th Qtr 1st Qtr 2nd Qtr 3rd Qtr 4th Qtr 1st Qtr 2nd Qtr 3rd Qtr 4th Qtr 1st Qtr



Source: Department of the Treasury GSA SmartPay Refunds by Bureau report.




1
  A rebate is a monetary payment provided by credit card contractors to agencies based on either dollar volume spent
or timeliness and frequency of payments to the contractor.
2
  Net Charge Volume is the sum of all travel expenditures, including Travelers Checks, convenience checks,
automated teller machine, and other fee-generating products/services less merchant credits (return of goods or
services).
                                                                                                                           Page 22
                               Although Citibank Travel Rebates Have
                     Significantly Increased, They Were Not Properly Allocated,
                             Resulting in the Misappropriation of Funds




Figure 2 shows that the IRS’ travel expenditures were greater in the first quarter of each fiscal
year. Because net charge volumes are used in the calculation of rebates, the resulting rebates
also were higher in the first quarter of each fiscal year.
                            Figure 2: Travel Card Net Charge Volume




  $70,000,000
  $60,000,000
  $50,000,000
  $40,000,000
  $30,000,000
  $20,000,000
  $10,000,000
            $0
                  FY07    FY 07   FY 07   FY 07   FY08    FY 08   FY 08   FY 08   FY09    FY 09   FY 09   FY 09   FY10
                 1st Qtr 2nd Qtr 3rd Qtr 4th Qtr 1st Qtr 2nd Qtr 3rd Qtr 4th Qtr 1st Qtr 2nd Qtr 3rd Qtr 4th Qtr 1st Qtr



Source: Department of the Treasury GSA SmartPay Refunds by Bureau report.




                                                                                                                           Page 23
               Although Citibank Travel Rebates Have
     Significantly Increased, They Were Not Properly Allocated,
             Resulting in the Misappropriation of Funds



                                                    Appendix VII


Management’s Response to the Draft Report




                                                            Page 24
          Although Citibank Travel Rebates Have
Significantly Increased, They Were Not Properly Allocated,
        Resulting in the Misappropriation of Funds




                                                       Page 25
          Although Citibank Travel Rebates Have
Significantly Increased, They Were Not Properly Allocated,
        Resulting in the Misappropriation of Funds




                                                       Page 26
          Although Citibank Travel Rebates Have
Significantly Increased, They Were Not Properly Allocated,
        Resulting in the Misappropriation of Funds




                                                       Page 27
          Although Citibank Travel Rebates Have
Significantly Increased, They Were Not Properly Allocated,
        Resulting in the Misappropriation of Funds




                                                       Page 28
